CAPITAL CASE
No. A-____

In The
Olourt nf

States

Billy Daniel Raulerson, Jr.,
Applicant,
V.

Warden,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR WRIT OF CERTIORARI

David W. DeBruin
Counsel of Record
Jenner & Block LLP
1099 New York Avenue, N.W.
Washington, D.C. 20001
(202)639-6015
ddebruin@j enner. com
Counsel for Applicant
November 6,2019

TABLE OF CONTENTS
TABLE OF AUTHORITIES

11

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI......................................

1

1
4

TABLE OF AUTHORITIES
Cases
Atkins V. Virginia, 536 U.S. 304 (2002)..............................................................

,2

Calvert v. Texas, No. AP-77,063,2019 WL 5057268 (Tex. Grim. App. Oct. 9,2019)

,4

Cooper V. Oklahoma, 517 U.S. 348 (1996)............................................................

,2

Statutes
28 U.S.C.§ 1254(1)

1

11

(

In The
dnurt of

I

Billy Daniel Raulerson, Jr.
Applicant,
V.

Warden,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR WRIT OF CERTIORARI
To the Honorable Clarence Thomas, Associate Justice of the United States
Supreme Court and Circuit Justice for the Eleventh Circuit:
Pursuant to this Court’s Rules 13.5, 22, and 30.3, Billy Daniel Raulerson, Jr.
(“Applicant”) respectfully requests a 60-day extension of time, to and including January
24, 2020, within which to file a petition for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Eleventh Circuit in this case. If not extended.
the time for filing a petition will expire on November 25,2019. Consistent with Rule 13.5,
this application is being filed at least 10 days before that date.
A copy of the Eleventh Circuit’s opinion (reported at 928 F.3d 987 (11th Cir. 2019))
is attached hereto at Tab A. A copy of the Eleventh Circuit’s order dated August 27,
2019, denying Applicant’s Petition for Rehearing is attached hereto at Tab B. This Court
has jurisdiction over this death penalty case under 28 U.S.C. § 1254(1).

!

1.

On June 28, 2019, the Eleventh Circuit affirmed the District Court’s denial

of Applicant’s petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254, with the
Honorable Adalberto Jordan, Circuit Judge, dissenting. Oral argument in the case had
occurred more than two years earlier, on May 10, 2017, Among other rulings, the Court
held that the State of Georgia did not deprive Applicant of due process by requiring him
to prove at trial, beyond a reasonable doubt, that he is intellectually disabled and
therefore cannot be executed under the Eighth Amendment and this Court’s decision in
Atkins V. Virginia, 536 U.S. 304 (2002). Applicant had raised on direct appeal, on state
habeas, and on federal habeas the claim that application of this burden of proof to a claim
of intellectual disability violated the due process principles set forth by this Court in
Cooper V. Oklahoma, 517 U.S, 348 (1996) (prohibiting the use of the clear-and-convincing
standard to establish lack of competency to stand trial).
2.

As Applicant will demonstrate in his petition for a writ of certiorari, this

case presents an important question of constitutional law. The decision of the Court of
Appeals is irreconcilable with Cooper. In Cooper, this Court held, prior to Applicant’s
direct appeal, that the Due Process Clause prohibits a State from requiring a criminal
defendant to prove he is not competent to stand trial - an issue involving a constitutional
right - by clear and convincing evidence. That standard is lower than the one the Court
of Appeals upheld here. A capital defendant has a constitutional right not to be executed
if he is intellectually disabled, and Cooper makes clear that requiring a capital defendant
to prove intellectual disability beyond a reasonable doubt is incompatible -with basic
standards of due process. The issue is also critically important, as experience has shown.

.2

As Judge Jordan noted in his dissent, “[i]n the 30 years since [O.C.G.A.] § 17-7-131(c)(3)
was enacted, not a single capital defendant has succeeded in proving to a factfinder that
he or she is intellectually disabled beyond a reasonable doubt” Tab A at 60 (Jordan, J.,
dissenting (emphasis added)). In other States, capital defendants have succeeded in
proving intellectual disability, and not infrequently. The contrary experience in Georgia
strongly suggests that intellectually disabled persons are being put to death in violation
of the Due Process Clause.
3.

Capital defendants in Georgia are entitled to a procedurally fair

opportunity to prove they are intellectually disabled. At present, that opportunity does
not exist. Georgia’s burden of proof is inappropriate and requires “a level of certainty
that mental health experts simply cannot provide.” Id. at 63 (Jordan, J., dissenting).
Under Georgia’s burden, the risk of an erroneous determination of the constitutionallyprotected issue of intellectual disability is unacceptably high, just as this Court found in
Cooper with regard to a clear-and-convincing burden for establishing incompetence to
stand trial.
4.

Applicant respectfully submits that the requested extension of time is

justified for the following reasons.
5.

Undersigned counsel for Applicant is handling this matter on a pro bono

basis. Since the Court of Appeals denied rehearing on August 27,2019, counsel has been
deeply engaged in multiple matters that have placed extreme demands upon his time. In
particular:

3

a.

On September 5, 2019, counsel presented oral argument before the New

York Court of Appeals in Cayuga Nation v. Campbell, No. 70 (N.Y. 2019). On October
29,2019, the Court ruled that the New York state courts lack subject matter jurisdiction
over the dispute. A motion for reargument of the appeal is due on November 29,2019.
b.

Counsel is lead outside counsel for Exelon Generation in a dispute with the

State of Maryland that includes litigation in federal court in the District of Columbia,
litigation in the Maryland Court of Specials Appeals, proceedings before the Federal
Energy Regulatory Commission (FERC), and administrative proceedings before the
Maryland Department of the Environment. After several months of involvement in a
court-ordered mediation program, on October 29,2019, Exelon and the State of Maryland
announced a settlement of all pending matters, upon the approval of certain provisions
by FERC. As announced by the parties, the settlement includes benefits to Maryland
and the Chesapeake Bay that are valued at more than $200 million over the anticipated
50-year life of a federal license for a hydroelectric facility on the Susquehanna River.
Exelon must file reply comments at FERC regarding the settlement on December 2,
2019.
c.

Counsel also represents James Calvert on the direct appeal of his conviction

and sentence of death to the Texas Court of Criminal Appeals. On October 9, 2019, the
Court affirmed the conviction and death sentence. Calvert v. Texas, No. AP-77,063,2019
WL 5057268 (Tex. Crim. App. Oct. 9, 2019) (unpublished). The slip opinion of the Court
is 158 pages. Calvert’s motion for rehearing originally was due on October 23, 2019.
Calvert sought an extension of 45 days, but was granted an extension only to November

4

25, 2019. Thus, Calvert’s petition for rehearing currently is due on the same day that
Applicant’s petition for writ of certiorari currently is due in the instant case.
d.

Counsel also represents Arthur Giles in a death penalty case currently on

appeal to the United States Court of Appeals for the Eleventh Circuit. Oral argument in
the case was scheduled for October 21,2019. On September 30,2019, on the Court’s own
motion, the argument was rescheduled to February 24, 2020.
e.

Counsel has another oral argument scheduled, before the United States

Court of Appeals for the Second Circuit, on January 7,2020, in Cayuga Indian Nation of
New York v. Seneca County, New York, No. 19-0032-cv (2d Cir.). The case involves a
complicated tax foreclosure dispute and issues of sovereign immunity.
f.

Counsel is also lead counsel for the University of Michigan and other

defendants in the case of John Doe v. Baum, Case No. 2:16-cv-13174 (E.D. Mich.). The
case is scheduled for a full mediation on Tuesday, November 26,2019, before a third-party
mediator in Birmingham, Michigan.
g-

In addition to these matters, counsel is also engaged as lead counsel in other

litigation matters, with pending filing and deposition dates during the period prior to, and
following. Applicant’s present deadline of November 25,2019, to file the petition for writ
of certiorari in the instant case.
8.

Counsel has begun work on the petition, but, as a result of the other

professional obligations set forth above, and the complexity and importance of the

5

constitutional issue Applicant seeks to present to the Court, counsel will not be able to
complete work on the petition prior to the requested extension date of January 24,2020.
WHEREFORE, for the foregoing reasons. Applicant respectfully requests that
Your Honor grant this Application and extend the time in which to file a petition for a of
certiorari to and including January 24, 2020.
Dated: November 6, 2019

Respectfully submitted.

David W. DeBruin
Counsel of Record
Jenner & Block LLP
1099 New York Avenue, N.W.
Washington, D.C. 20001
(202)639-6015
ddebruin@jenner.com
Counsel for Applicant

6

